No._ _ _ __

Jn 1Ebt
gs,uprtmt Qeourt of tbt Wnittb gs,tatt~
ALIJAH JAQUEZ MITCHELL,

Petitioner,

v.

UNITED STATES OF AMERICA,

Respondent.

AFFIDAVIT OF SERVICE
I, Karen R. Taylor, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That on the 25th day of September,
2020, I filed a copy of the Petition of Writ of Certiorari and Motion for Leave to
Proceed In Forma Pauperis with the United States Supreme Court via UPS Ground
Transportation. I further certify that I served a copy of said Petition via UPS
Ground Transportation addressed to the following:
Solicitor General of the United States
\
Department of Justice
,. \_
950 Pennsylvania Avenue, NW, Room 5614
Washington, DC 20530-0001
Jennifer P. May-Parker
Office Of The United States Attorney
150 Fayetteville Street Suite 800
Raleigh, NC 27601
(919) 856-4530

Counsel for Respondent

Gibson Moore Appellate Services, LLC
206 East Cary Street
Richmond, VA 23219

For:
Michael W. Patrick
Counsel of Record
LAW OFFICE OF
MICHAEL W. PATRICK

P . 0. Box 16848
Chapel Hill, NC 27516
(919) 960-5848
Counsel for Petitioner

Signed and subscribed before me on this 25th day of September, 2020.

Bradford E. Moore
NOTARY PUBLIC
Commonwealth of Virginia

Reg. #7241026

commission Exp. 4/30/2021

